Audit Report 97-05
IMMIGRATION AND NATURALIZATION SERVICE
CONTRACTING FOR DETENTION SPACE
Audit Report 97-05, (1/97)
TABLE OF CONTENTS
AUDIT RESULTS
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
CONTRACTING PRACTICES AND THE COSTS OF DETENTION SPACE
Contracted Detention Facilities
Intergovernmental Service Agreements
Utilization of Detention Space
Allocation of Detention Costs to the User Fee
Account
Recommendations
COSTS OF CONTRACTED AND GOVERNMENT FACILITIES
Reporting Detention Costs on the INS Detention
Cost Report
Compensation and Benefits Costs
Escort Duty Costs
Travel, Medical, and Contracted Detention
Facility
Recognition of Expenditures
Identification of Detention Costs in FACS
Recommendation
APPENDIX I - STATEMENT ON COMPLIANCE WITH LAWS AND
REGULATIONS
APPENDIX II - SCOPE AND METHODOLOGY
APPENDIX III - IMMIGRATION AND NATURALIZATION
SERVICE'S RESPONSE TO THE DRAFT REPORT
APPENDIX IV - AUDIT DIVISION ANALYSIS AND SUMMARY OF
ACTIONS NECESSARY TO CLOSE THE REPORT
AUDIT RESULTS
The Office of the Inspector General (OIG), Audit Division, has completed an audit of
Contracting for Detention Space in the Immigration and Naturalization Service (INS). Our
audit disclosed that INS contracting practices for detention space were in accordance with
federal guidelines. However, we identified weaknesses in the allocation of detention costs
to the User Fee Account, and the reporting of detention costs. We found that:
the method of reimbursement for the Seattle, WA, detention facility was not based on the
number of aliens in detention and would not be cost effective if the facility was not
adequately utilized;
the allocation by the INS Western Regional Office of FY 1995 detention obligations to
the User Fee Account was too high by approximately $2 million; and
for FY 1994 the INS detention cost report did not accurately present detention costs and
the costs presented did not agree with the INS Financial Accounting and Control System
(FACS).1
INTRODUCTION
The objectives of the audit were: to assess INS practices in contracting for and
utilizing detention space, including a review of costs for reasonableness, allowability,
and allocability; and to identify and compare the costs of contracted facilities with the
costs of government operated facilities.
The INS regional structure and changes to it during our testing period are described in
Appendix II.
Section 242 of the Immigration and Nationality Act (the Act) authorizes the Attorney
General to take into custody and detain aliens pending a determination of their
deportability. The Attorney General delegated to INS the responsibility for enforcing the
Act and maintaining custody of detained aliens. Under the Act, INS may detain any alien
awaiting the outcome of deportation proceedings.
The INS has four sources for detention space: (1) INS owned Service Processing Centers
(SPC), (2) contracts with private vendors, (3) facilities jointly operated by INS and the
Bureau of Prisons (BOP), and (4) state and local jails. As of May 1996, the rated capacity2 of SPCs and contracted detention facilities was 3,506 beds.
Jointly operated facilities provided 1,130 beds. Intergovernmental Service Agreements
(IGA) for the use of state and local jails provided INS with a potential for 1,644
detention beds per day.3 Unlike the SPC and contract
space, IGAs did not guarantee space.
FINDINGS AND RECOMMENDATIONS
I. CONTRACTING PRACTICES AND THE COSTS OF DETENTION
SPACE
Our review of INS contracting practices for detention space disclosed that INS was
generally in compliance with federal contract guidelines. We did note that the contract
for the Seattle, WA, detention facility would not be cost effective if the average
population of detainees fell below 123. In addition, our review of detention costs
disclosed that the allocation by the INS Western Regional Office of detention costs to the
User Fee Account was excessive by approximately $2 million.
The INS utilized six contracted detention facilities during FY 1994 and 1995. Five
facilities were owned by the contractors, and one (Seattle, WA) was owned by INS and
operated by Esmor, Inc. We reviewed contract files for the six facilities to determine if
they were awarded on a competitive basis. For those contracts not awarded on a competitive
basis, we reviewed the contract files to determine if the price analyses were prepared as
required by the Federal Acquisition Regulations. Additionally, we reviewed INS practices
for obtaining detention space from state and local governments under IGAs.
Contracted Detention Facilities
In FY 1994 INS reported $16,565,893 in costs for detention space obtained through
contracts with private vendors, as shown in the table on the following page. Because
contracted facilities opened and closed during the year, the actual number of contracted
beds varied during the year. Currently, INS has 795 beds available at detention facilities
operated by private contractors.
FY 1994 CONTRACT COSTS FOR INS DETENTION SPACE OBTAINED FROM PRIVATE
CONTRACTORS
FACILITY
CONTRACTOR
DETENTION BEDS
DAILY RATE
FY 1994 COSTS4
Aurora, CO
Wackenhut
300
$ 58.99
$ 4,845,018
Elizabeth, NJ
Esmor
300
$ 73.67
21,438
Houston, TX
CCA
160
$ 47.27
1,892,043
Laredo, TX
CCA
185
$ 40.53
1,406,291
New York, NY
Wackenhut
100
$113.98
5,417,263
Seattle, WA5
Esmor
150
6
2,983,840
Total
1,195
$16,565,893
(Source: FY 1994 detention cost report and detention contracts.)
Seattle, WA Detention Space
The INS advertised competitively for a contractor to operate an INS owned facility in
Seattle, WA. The INS selected Esmor, Inc. because an analysis indicated that the Esmor,
Inc. offer was the lowest of the proposals received.7
The contract with Esmor, Inc. provided detention services for a guaranteed minimum of
90 detainees per day at a facility with a rated capacity of 150 detainees. The contract
established a flat daily rate of $8,548 in FY 1995 and $9,061 in FY 1996, regardless of
the number of aliens in detention. As a result, the average daily cost for detaining an
alien at the facility increases as the detention population decreases. At the guaranteed
minimum of 90 detainees, the per alien reimbursement rate would be $100.68. At the maximum
of 150 detainees, the rate would be $61.22.
We attempted to determine if the flat daily rate under the Esmor, Inc. contract was
comparable to the rates for the four other contracted detention facilities. Accordingly,
we computed the average daily cost per alien under the contract with Esmor, Inc. for FY
1995 and the first eight months of FY 1996.8 We then
compared the average daily cost per alien with the daily fixed rates for the four other
contracted detention facilities which were opened throughout FY 1995. The results of our
comparison are presented in the table on the following page.
DAILY COST/FIXED CONTRACTED RATE CONTRACTOR OPERATED FACILITIES
Facility
Rated Capacity
FY 1994
FY 1995
FY 1996
Seattle, WA
150
9
$49.70
$61.22
Aurora, CO
300
$58.99
$61.88
$64.74
Elizabeth, NJ
300
$73.67
$73.67
N/A
Houston, TX
160
$47.27
$49.16
$51.12
Laredo, TX
185
$40.53
$42.56
$44.69
Average Rate (excl. Seattle)
$58.05
$59.68
$55.61
(Source: Actual contract rates.)
The effective rate for the Seattle, WA, detention facilities operated by contractors
appeared to be reasonable when compared to other facilities. However, the effective rates
for FY 1994, FY 1995, and the first 8 months of FY 1996 did not include fixed and variable
facilities costs because the contract with Esmor, Inc. required that INS absorb fixed and
variable costs related to the building. We could not determine the effect these fixed and
variable building costs had on the effective rate for the Seattle, WA, facility because,
as previously stated in this report, INS could not provide us with these costs.
The cost effectiveness of a flat daily rate contract is determined by the daily
detainee rate. The contract with Esmor, Inc. would not be cost effective if the number of
detained aliens dropped significantly. If the average detention rate dropped to 122 aliens
per day, the effective daily detention rate would be $74.27, based on the current
contracted flat rate of $9,061, and would exceed the rates for the other four detention
facilities. It is obviously to the government's advantage to keep the Seattle facility
filled to capacity.
Intergovernmental Service Agreements
The INS uses state and local jails to augment detention space. It obtains this space
through IGAs negotiated between INS and state and local governments and IGAs negotiated by
the United States Marshals Service (USMS)10.
In FY 1994 INS used 466 state and local jails under IGAs. Under the IGAs INS reimbursed
the state and local governments based on fixed daily rates for each alien detained. The
INS also reimbursed state and local governments for additional costs, such as medical and
travel, that were specified in the IGAs. In FY 1994 the average daily rate of the 466 IGAs
was $51.38 per day while the average negotiated rate for contracted detention space was
$55.11 per day. The IGA average was lower than the average for detention space obtained
through contracts with vendors. However, it is not possible to compare the two costs
because of medical and travel costs that may be charged to the IGAs.
Utilization of Detention Space
In FY 1995 INS operated nine SPCs with a combined rated capacity of 2,549 detention
beds. The INS also used joint federal facilities with the BOP at the Oakdale Federal
Detention Center in Louisiana (630 beds) and the criminal alien contract facility in Eloy,
Arizona (1,000 beds, 500 INS and 500 BOP). Expansion initiatives were underway at the El
Paso and Krome SPCs. Additionally, funds were allocated to build a detention facility in
Buffalo, NY, providing 100 beds for the INS and 150 beds for the USMS.
To assess the extent to which the INS detention capacity was used, we reviewed average
monthly population from the INS FY 1995 Detention Status Report. We determined that the
average detainee population for these detention facilities ranged from a low of 85 percent
in the Central Region to a high of 100 percent in the Eastern Region with an overall
average of 94 percent of rated capacity. The percentage of occupancy is presented in the
table on the following page.
UTILIZATION OF DETENTION CAPACITY FOR FY 1995
Regional Office
Percent of Capacity
Eastern
100
Central
85
Western
99
Average INS
94
(Source: The INS FY 1995 Detention Space Status Report.)
We discussed the utilization rate for the INS Central Regional Office with the
Assistant Regional Director for Detention and Deportation. The Assistant Regional Director
told us that Central Regional Office detention facilities were not used to full capacity
because the regional office was not budgeted with sufficient funds to utilize the full
capacity of these facilities. A similar issue for other INS offices was identified in our
audit on INS Select Enforcement Activities.11 As
stated in that report, INS officials indicated that, although detention beds may be
available under local agreements, funds are not always available to utilize these beds to
the fullest extent.
Allocation of Detention Costs to the
User Fee Account
The 1986 Omnibus Appropriation Bill, Public Law (P.L.) 99-591, established a fee to be
collected from passengers arriving at a port of entry in the United States or for the
preinspection of passengers in a place outside the United States prior to arrival aboard a
commercial aircraft or commercial vessel. P.L. 99-591 required the fees to be deposited in
a separate account, called the User Fee Account, within the general fund of the Treasury
of the United States. The law authorized the use of User Fee Account funds for
expenditures incurred in providing detention and deportation services for excludable
aliens arriving on commercial aircraft and vessels.12
We reviewed FY 1994 and 1995 costs for INS detention facilities to determine if the
costs were reasonable, allowable, and allocable. Additionally, we reviewed the INS
methodologies for allocating FY 1995 obligations to the User Fee Account for the Eastern,
Central, and Western Regional Offices.
In conformance with P.L. 99-591, the methodology for allocating the initial detention
obligations to the User Fee Account for the Eastern and Central Regional Offices was based
on the detention days incurred for qualified excludable aliens. However, the methodology
used for the Western Regional Office did not appear to be in conformance with P.L 99-591.
The INS officials from the Western Regional Office told us that they allocated FY 1995
obligations based on prior years' experience. However, they did not provide the requested
documentation to support their methodology. The OIG reported a similar finding for INS as
a whole in our audit of the INS fee accounts.13 In
the Commentary and Summary section of that report, the auditors stated: "Management
has not developed a reasonable and systematic process for the field offices to allocate
expenses between the Basic Appropriation Account and the Fee Accounts."
To assess the reasonableness of the Western Regional Office's allocations of
obligations for detention costs to the User Fee Account, we judgmentally selected
detention statistics and obligations for the months of January, March, and May 1995. For
these months, the INS Western Regional Office had 200,625 detention days, of which 29,671
(15 percent) were for detaining excludable aliens. Western Regional Office obligations for
detention and deportation were $7,204,452, of which $3,159,650 (44 percent) was allocated
to the User Fee Account. Had the regional office used the 15 percent allocation based on
the statistics, $1,080,668 would have been allocated to the User Fee Account. Therefore,
INS over-allocated $2,078,982 ($3,159,650 minus $1,080,668) in obligations to the User Fee
Account. To be in compliance with the P.L 99-591, INS must develop an allocation
methodology for the Western Regional Office to ensure only those detention and deportation
costs reimbursable from User Fees are allocated to the User Fee Account.
*         *
*
Generally, INS practices for awarding detention contracts were in accordance with the
prescribed policies and procedures governing contracting for services under Part 15 of the
Federal Acquisition Regulations. However, the reimbursement method for the INS contract in
Seattle, WA, would not be cost effective if the facility was not adequately utilized. In
general, INS practices for obtaining and using IGAs were appropriate. The detention space
obtained through contracts and SPCs was utilized at adequate levels. Detention costs were
reasonable, allowable, and allocable based on the contracts. However, we found the INS
Western Regional Office over allocated detention obligations totalling $2,078,982 to the
User Fee Account.
Recommendations
We recommend that the Commissioner, INS:
Take steps to assure maximum utilization of the Seattle, WA detention facility and any
other such facility contracted for on the basis of a flat daily rate.
Allocate the cost of detention for the Western Region to the User Fee Account based on
the costs of detaining excludable aliens who arrive on commercial aircraft and vessels as
stated in P.L. 99-591.
II. COSTS OF CONTRACTED AND GOVERNMENT FACILITIES
Reported costs for INS owned detention facilities could not be verified to the actual
costs. This was because INS did not accurately and consistently report the SPC detention
costs in the FY 1994 INS detention cost report and because accounting reports did not
identify all detention costs by detention facility. As a result, we could not compare the
costs of contracted detention facilities with the costs of government owned detention
facilities to determine the cost benefit of one versus the other.
Reporting Detention Costs on the INS
Detention Cost Report
The INS' FY 1994 detention cost report identified costs totalling $91,229,742 as
follows:
Type of Facility
FY 1994 Costs
SPCs
$47,575,690
IGA Space
27,088,159
Contracted Facilities
16,565,893
Totals
$91,229,742
(Source: FY 1994 The INS detention cost report.)
The detention cost report is designed to be used by INS management for:
monitoring and controlling detention costs,
assuring that the detention program has sufficient funding to fully utilize existing
detention space,
projecting future detention facility and funding needs, and
determining what types of detention space should be added to the current capacity to
meet expanding detention needs.
The INS detention cost report is supposed to be based on detention statistics
maintained by each INS Regional Office and detention costs extracted from FACS. Each
region is responsible for preparing its segment of the report. In FY 1994 the INS
Eastern, Northern, Southern, and Western Regional Offices prepared and submitted to
Headquarters segments of the INS detention cost report.14
INS Headquarters prepared a consolidated detention cost report from the regional segments.
However, these reports were prepared using different criteria; therefore, a meaningful
comparison or analysis of the detention costs is impossible.
The FY 1994 detention cost report was materially inaccurate because it did not properly
identify SPC detention costs. Additionally, some detention costs, such as travel and
medical costs, were omitted from the report. Also, INS regional offices used different
methods for recognizing and reporting detention costs because INS had established neither
criteria for recognizing costs nor a standard methodology for preparing the report.
The FY 1995 detention cost report was provided by INS at the exit conference. We did
not review the FY 1995 report because it was not available during our audit. However, INS
officials stated that the FY 1995 report was likely to contain the same types of errors
that we disclosed for the FY 1994 report.
Compensation and Benefits
Costs
We compared compensation and benefits costs reported in the INS detention cost report
to costs reported in FACS. Since FACS is the primary accounting system for INS, it should
be the basis for the INS detention cost report. Any differences between the INS detention
cost report and FACS should be reconciled prior to issuance of the report. Our audit
disclosed approximately $4 million of differences between the FY 1994 detention cost
report and FACS. These differences are presented in the table on the following page.
COMPARISON OF COMPENSATION AND BENEFIT COSTS REPORTED ON THE INS
DETENTION COST REPORT WITH COMPENSATION AND BENEFIT COSTS EXTRACTED FROM FACS FOR FY 1994
Location
Reported Amount Column (a)
FACS Amount Column (b)
Difference Column a - b
Boston, MA
$ 2,489,650
$ 2,432,292
$ 57,358
New York, NY
5,566,085
5,030,729
535,356
Aguadilla, PR
766,454
793,699
-27,245
Total Eastern Region
$ 8,822,189
$ 8,256,720
$ 565,469
Krome, FL
$ 7,678,586
$ 6,168,326
$ 1,510,260
El Paso, TX
3,597,004
3,294,331
302,673
Port Isabel, TX
5,188,450
4,592,580
595,870
Total Southern Region
$16,464,040
$14,055,237
$ 2,408,803
El Centro, CA
$ 4,747,512
$ 5,723,174
$ -975,662
Florence, AZ
3,659,829
3,680,105
-20,276
San Pedro, CA
3,112,696
3,133,233
-20,537
Total Western Region
$11,520,037
$12,536,512
$-1,016,475
(Source: The INS detention cost report and FACS.)
We asked INS officials to explain the $4 million in differences identified in the table
above. INS officials told us the files might have been updated after the close of the
fiscal year, the records and computations supporting the INS detention cost report were
not available, and the employee who prepared the INS detention cost report was no longer
available.
Escort Duty Costs
Escort duty costs are associated with SPC guards escorting detained aliens outside the
SPC. Such duties included escorting detained aliens between the initial point of
incarceration and the SPC and among SPCs. In the INS FY 94 detention cost report, escort
duty costs were subtracted from the total compensation and benefits charged to the SPC
prior to calculating the daily cost per alien for the SPC.
We reviewed the methodology used for identifying and reporting escort duty costs for
the Eastern, Southern, and Western INS Regional Offices.15
The Eastern and Southern Regional Offices used different methodologies to calculate escort
duty costs and the Western Regional Office reported no escort duty costs. The Eastern
Regional Office identified escort duty costs based on 20 percent of compensation and
benefits. The Southern Regional Office officials stated they relied upon information
provided by the SPCs; however, they could not provide documentation to support their
calculations.
The INS should identify and allocate the costs of escort duty between the detention and
deportation programs based on the benefits received by each program. Such an allocation is
necessary to assure allocable escort duty costs are included in the cost of detention.
Travel, Medical, and
Contracted Detention Facility Costs
Travel Costs: The FACS included travel costs totaling $3.6 million for detention and
deportation of aliens for FY 1994; however, no travel costs were reported in the FY 1994
INS detention cost report. In our judgment, travel for detention of aliens should be
included in the INS detention cost report.
Medical Costs: The FACS included medical costs totaling $1.3 million which were not
reported on the FY 1994 INS detention cost report because the Southern and Western
Regional Offices did not use the correct accounting code to identify medical costs in
FACS.
Detention Facility Costs: Costs were understated because the detention cost report did
not include detention costs of $5,417,263 for the New York, NY contracted detention
facility operated by the Wackenhut Corporation and detention costs of $389,114 incurred
under an IGA with the Tangipahoa Parish Jail in Amite, LA.
Recognition of Expenditures
Our review disclosed that INS regional offices did not recognize detention costs on a
consistent basis. The INS Eastern Regional Office reported detention costs based on
obligations. The Northern Regional Office reported costs as an estimate of anticipated
costs based on detention day rates and detention days. The Southern and Western Regional
Offices reported only those costs for which a disbursement had been made.
Identification of Detention Costs in FACS
The INS understated SPC cost for FY 1994 because costs of $4,538,911 for contracted
guard services at SPCs were not identified by the SPC within FACS nor contained in the
detention cost report. These costs were charged within FACS against the regional office
rather than the detention facility because the regional office held budget authority. The
INS officials told us these transactions could have been coded in a manner to identify
both the budget holder and the SPC that incurred the charges.
In our judgment detention transactions should be coded so that all detention costs can
be identified for the SPC that incurred the costs.
*         *
*
In conclusion we identified material differences between the INS detention cost report
and FACS. We found INS did not establish criteria for identifying and reporting the escort
duty costs in the INS detention cost report. Additionally, INS did not establish and
implement procedures to ensure that all relevant detention costs would be reported in the
INS detention cost report. The INS Western and Southern Regional Offices did not recognize
detention costs based on all costs incurred for the fiscal year. Finally, the INS
detention cost report did not report the costs for SPC guard contracts because these costs
were not broken down by SPC within FACS.
Because of deficiencies in the INS detention cost report, the report could not be used
by INS management to effectively monitor and control detention costs, assure that the
detention program had sufficient funding, project and budget future detention funding
needs, and determine what types of detention space should be added to meet the increasing
need for additional alien detention space.
Recommendation
We recommend that the Commissioner, INS:
3. Establish a methodology and implement procedures to ensure that detention costs
reported in the INS detention cost report are accurate, complete, and consistent.
1     The purpose of the INS detention cost
report is to provide INS management with total detention days, individual detention rates,
and total detention costs for each detention facility for the fiscal year. We did not test
the FY 1995 detention cost report because it was not available at the time of our audit.
The report was provided to us at the exit conference. INS officials stated that the FY
1995 report was prepared based on the same methodology used for the FY 1994 report, and
that the FY 1995 report was likely to have the same errors that we identified in the FY
1994 detention cost report.
2 The rated detention capacity for SPCs is the optimum
capacity based on standards developed by the American Correctional Association.
3 Based on a 1994 INS estimate of 600,000 detention days per
year divided by 365 days. Because the 1995 INS detention cost report was not available as
of May 1996, more current information on IGA bed space was not available.
4 FY 1994 costs for contracted detention facilities are not
equal to contracted detention beds times the contracted daily detention rate times 365
days because the contracted detention facilities were not operated at 100 percent of
capacity. In some instances, facilities were operated above the contracted capacity.
Additionally, the FY 1994 costs reported by INS for Aurora, CO; Houston, TX; Laredo, TX;
and Seattle, WA did not include unliquidated obligations because, as reported in Finding
II of this report, the INS Southern and Western Regional Offices omitted unliquidated
obligations from costs reported for their segments of the FY 1994 INS detention cost
report.
5 FY 1994 detention costs reported in the detention cost
report do not include fixed and variable building costs allocable to the detention of
aliens. INS Western Regional Office officials maintain that the contractor was responsible
for these fixed and variable costs; however, the contract between INS and Esmor, Inc.
states that these costs will be absorbed by INS. In May 1996 we requested that INS provide
us with cost data on fixed and variable building costs for the Seattle, WA contracted
detention facility; however, INS officials told us that data on fixed and variable
building costs for the Seattle facility were not available.
6 The contract between INS and Esmor, Inc. called for
reimbursement based on a flat daily rate of $8,548 regardless of the actual number of
aliens detained. The current contract rate for FY 1996 is $9,061.
7 INS officials told us that they planned to negotiate future
detention contracts using a flat daily rate for a guaranteed minimum number of detainees.
8 We computed an average daily cost per alien of $49.70 for FY
1995 using the FY 1995 contracted daily reimbursement rate of $8,548 divided by the
average population of 172 aliens as reported in statistics compiled by the contractor. In
May 1996 INS provided us with updated detention data for the first 8 months of FY 1996.
Based on this data, the average daily detention for the first 8 months of FY 1996 was 148
detainees per day. The INS contract with Esmor, Inc. called for the daily flat
reimbursement rate to increase to $9,061 in FY 1996; therefore, the effective daily rate
of for the Seattle, WA contracted detention facility was $61.22 ($9,061 divided by 148
detainees) for the first 8 months of FY 1996.
9 In order to calculate an effective rate we requested FY
1994 daily detention statistics from INS; however, INS officials told us that they could
not locate these statistics.
10 The Office of Management and Budget (OMB) authorized the
use of IGAs in 1982 to meet law enforcement agency needs for detention space. The INS,
USMS, and BOP enter into agreements with state and local governments for detention
services. The INS and the BOP also make use of the detention space obtained under the IGAs
awarded by the USMS. For 1996 it is anticipated that the USMS will have almost 1,000 IGAs.
11 Office of the Inspector General Audit Report 95-30, Immigration
and Naturalization Service Select Enforcement Activities, dated September 1995.
12 P.L. 99-591 also authorizes reimbursements from the User
Fee Account for providing immigration inspection and preinspection services for commercial
aircraft or vessels; providing overtime immigration inspection services for commercial
aircraft or vessels; administration of debt recovery, including the establishment and
operation of a national collections office; expansion, operation, and maintenance of
information systems for nonimmigrant control and debt collection; and detection of
fraudulent documents used by passengers traveling to the United States.
13 Audit Report Number 95-2A, Immigration and
Naturalization Service Fee Accounts Fiscal Year 1993, dated November 1994.
14 In FY 1994 the INS eliminated the Northern Regional
Office, and in FY 1995 the INS Southern Regional Office became the INS Central Regional
Office as result of the INS reorganization.
15 There were no SPCs located in the Northern Region for FY
1994.
#####